                                                                 Issue Date
                                                                              March 30, 2007
                                                                 Audit Report Number
                                                                              2007-FW-1007




TO:         Jesse Westover
            Director, Office of Public Housing, 6FPH


FROM:
            Frank E. Baca
            Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The Jacksonville Housing Authority, Jacksonville, Arkansas, Mismanaged
           Public Housing Capital Fund Program Funding


                                    HIGHLIGHTS

 What We Audited and Why

             We audited procurements by the Jacksonville Housing Authority (Authority),
             Jacksonville, Arkansas. The audit addressed U.S. Department of Housing and
             Urban Development (HUD) allegations of mismanagement at the Authority.
             Specifically, HUD alleged that the Authority’s executive director backdated
             contracts, giving the appearance that the Authority had obligated funds, to prevent
             HUD from recapturing 2003 Public Housing Capital Fund program (program)
             funding. As of October 2006, the Authority had $281,462 in fiscal years 2003
             through 2006 program funding that it had not obligated. HUD had disbursed
             $549,244 of the authorized 2000 through 2003 funding to the Authority.

             We conducted the audit to determine whether the Authority complied with its
             procurement policy and satisfied HUD-mandated timeframes for the obligation of
             program funding.
What We Found


           Due to its mismanagement of the program, the Authority overstated its obligations
           of fiscal year 2003 program funding in HUD’s Line of Credit Control System to
           prevent HUD’s recapture of $132,788 in funding. Therefore, the Authority did
           not satisfy HUD-mandated timeframes for the obligation of funding. In addition,
           it did not comply with its procurement policy regarding soliciting bids,
           documenting bids, and accepting the work. As a result, it misspent $164,203 of
           its funding.

What We Recommend


           We recommend that HUD assist the recently replaced board of commissioners
           (board) and the new executive director in establishing board oversight and
           controls to ensure that the Authority implements sound funding plans, enters valid
           obligations in the Line of Credit Control System, and complies with its
           procurement policy. This should result in current available funding of $281,462
           being put to better use. HUD also should penalize the Authority for slow
           obligation of funding, as regulations require. In addition, HUD should direct the
           Authority to either support or repay HUD for procurements not conducted in
           conformity with policy and/or supported for which the Authority spent $164,203
           in program funding.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the Authority with a draft report on March 8, 2007, and requested a
           written response by March 30, 2007. The Authority provided its written response
           on March 26, 2007. It sustained the report and reported implementation of
           controls and other planned measures to address deficiencies. The complete text of
           the Authority’s response can be found in Appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objective                                             4

Results of Audit                                                    5
Finding: The Authority Mismanaged Its Program Funding

Scope and Methodology                                                9

Internal Controls                                                   10

Appendixes
   A. Schedule of Questioned Costs and Funds Be Put to Better Use   11
   B. Auditee Comments and OIG’s Evaluation                         12




                                            3
                       BACKGROUND AND OBJECTIVE

The Jacksonville Housing Authority (Authority) is a public housing agency in Jacksonville,
Arkansas. Until June 2006, the U.S. Department of Housing and Urban Development (HUD)
considered it a small, nontroubled public housing agency and allowed it to use capital or
operating amounts for eligible capital or operating activities relating to its inventories of 100
low-rent units and 362 Section 8 units. HUD has authorized seven program grants to the
Authority since 2000. The grants provided more than $1.1 million in assistance. A five-member
board of commissioners (board) and an executive director, who has seven full-time staff
members and a part-time security officer, managed the Authority. In June 2006, the Little Rock,
Arkansas, Office of Public Housing disclosed mismanagement at the Authority and in July 2006,
reported it to the HUD Office of Inspector General (OIG).

Because of the serious problems and at the urging of HUD public housing officials in Little
Rock, Arkansas, the Authority’s board forced the executive director to resign. With HUD’s help
and support, it hired the executive director of the Conway Housing Authority in Conway,
Arkansas, to serve as an interim part-time executive director. In addition, all five board members
have resigned and been replaced. In January 2007, the new board hired a full-time executive
director.

Before the board hired the new full-time executive director, the interim part-time executive
director with HUD’s assistance resolved the problem of expired funding. Within three months,
she solicited sealed bids and contracted to have central heat and air conditioning installed in low-
rent units for $283,720.

In January 2007 HUD public housing officials in Little Rock, Arkansas initiated a Memorandum
of Agreement (agreement) with the Authority’s new board and executive director to address
deficiencies at the Authority. The agreement, among other things, commits the Authority to
oversight and monitoring by the board, maintenance of permanent authority records according to
laws and regulations, improved procurement practices, obligation and expenditure of program
funding within approved implementation schedules, and resolving problems with access and use
of HUD systems. The agreement targeted most of the improvements to occur before March 31,
2007.

The audit objective was to determine whether the Authority administered its Public Housing
Capital Fund program (program) according to governing requirements. Specifically, we wanted
to determine whether the Authority complied with its procurement policy.




                                                 4
                                        RESULTS OF AUDIT

Finding: The Authority Mismanaged Its Program Funding
The Authority mismanaged its program funding by using baseless reporting to prevent recapture
of 2003 funding (this is no longer the penalty for slow obligation of funding 1 ). It backdated
contracts in an attempt to conceal assumed obligations entered into the HUD Line of Credit
Control System to prevent recapture of funding by HUD. The Authority did not obligate 90
percent of the 2003 program funding in a timely manner. Further, it did not exercise care and
consistency in following its procurement policy to ensure full and open competition in expending
funding. It did not use sealed bids for procurements exceeding $25,000, nor did it record and
retain bids solicited and document acceptance of contractors’ work as its policy requires.



    The Former Executive Director
    Attempted to Backdate
    Contracts to Conceal $132,788
    in Assumed Obligations


                  The former executive director attempted to backdate four contracts to conceal
                  $132,788 in baseless obligations entered into HUD’s Line of Credit Control
                  System. She entered the baseless obligations for fiscal year 2003 program
                  funding before the obligation end date of September 16, 2005. To shield her
                  efforts, she directed staff to prepare four contracts on June 27, 2006, and
                  backdated them to June and September 2005. She also directed staff to contact
                  two contractors and ask them to sign the backdated contracts. Staff could only get
                  one contractor to sign three backdated contracts totaling $118,716. The
                  contractor stated that he did not note the dates of the contracts signed. 2 In reality,
                  the Authority had not obligated 90 percent of the 2003 program funding before its
                  obligation end date. If it had recorded only its actual obligations, HUD would
                  have penalized the Authority one-twelfth of new assistance for each month the
                  2003 funding was less than 90 percent obligated.




1
     Under current sanctions for not obligating funds before the expiration date, HUD will not award assistance for
     any month during any fiscal year in which the Authority has more than 10 percent of its authorized funding not
     obligated that has expired. HUD revised the sanction in April 2004.
2
     From an interview and review of payment records, the contractor did not perform the work, and the Authority
     did not pay the contractor for two contracts totaling $77,012. For the third contract, the contractor had done the
     job without a contract; therefore, the Authority had paid the contractor $42,172.


                                                           5
The Responsible Official Did
Not Understand HUD
Requirements and System Use


           The former executive director apparently resorted to backdating because she did
           not understand HUD requirements and the use of HUD’s Line of Credit Control
           System. Besides not knowing the penalty for slow obligations of program
           assistance, she admitted she did not know that the Authority could have
           transferred funding to the operating account to prevent HUD from withholding
           assistance. She also admitted to problems in using the Line of Credit Control
           System. She claimed that she had not been able to obtain help from either HUD
           or the board. According to the former executive director, the board did not
           provide requested assistance or otherwise become involved in the process.

The Authority Did Not Comply
with Its Procurement Policy



           The Authority did not use sealed bids and document procurements, violating its
           procurement policy. As a result, it could not provide assurance that it satisfied the
           requirement for full and open competition.

The Authority Did Not Use
Sealed Bids for Three
Procurements Exceeding
$25,000

           Based upon a review of the transaction register prepared by the fee accountant,
           the Authority paid eight contractors and three suppliers more than $411,000
           during the three-year period ending June 30, 2006. Of these payments, the
           Authority had three procurements exceeding $25,000, totaling $130,033, which
           required sealed bids. However, it provided no evidence that it used sealed bids.
           Specifically,

              •   In August and September 2005, the Authority paid a contractor $42,172
                  for installing 100 steel panel doors. However, it did not solicit sealed bids
                  or maintain documentation as required. Further, it did not keep a record of
                  bids solicited or acceptance of work performed.
              •   In fiscal year 2005, the Authority procured 17 bathtubs for $34,867 from
                  one contractor. Instead of using sealed bids, it purchased the bathtubs as
                  multiple purchases. Its procurement policy prohibited, unless justified,
                  artificially dividing contract requirements into multiple small purchases.



                                             6
                      •    In May 2004, the Authority paid a contractor $52,994 but had no record of
                           the procurement.

                  Without the required documentation, the Authority cannot provide assurance that
                  it complied with procurement requirements, thereby obtaining the most
                  competitive prices, and confirmed that the work was performed as intended.
                  The omissions occurred because the former executive director, who was the
                  contracting officer, misapplied the Authority’s procurement policy and did not
                  document procurements as required. She believed that she only needed to use
                  sealed bids for contracts exceeding $50,000 instead of $25,000 as stated in the
                  procurement policy. She also asserted that she always solicited three quotes, but
                  she did not provide evidence supporting this. In addition, the board provided little
                  oversight of the Authority’s contracting activities. The board did not require a
                  review of contracting activities at its monthly meetings, and the executive director
                  did not include them as an agenda item.

    The Authority Did Not
    Maintain Documentation to
    Show Full and Open
    Competition for Purchases
    Between $1,000 and $25,001


                  The Authority did not maintain documentation necessary to show full and open
                  competition in its procurements exceeding $1,000 but not exceeding $25,000. For
                  such purchases, its procurement policy required three price quotations with award
                  to the lowest bidder, if not otherwise justified in writing, and a written record of
                  the procurement. It also required inspection of work before payment.

                  Based upon the payment documents for fiscal year 2006 ending June 30, 2006, 3
                  the Authority had 12 payments exceeding $1,000, totaling $34,171, which did not
                  comply with the procurement policy. Omissions included a record of bids
                  solicited 4 and acceptance of work performed. Three examples show payments of
                  $10,485 to one contractor without recording the procurements, payments of
                  $6,493 to another contractor to install flooring in two units without recording bids
                  and work acceptance, and payments of $6,205 to a third contractor without
                  recording bids.




3
     The Authority’s fee accountant provided fiscal year 2006 disbursement information.
4
     HUD also reported that the Authority did not keep adequate documentation of solicitations in a July 2006
     review.


                                                         7
Recommendations


          We recommend that HUD require the Authority to

          1A. In accordance with its agreement with HUD, establish adequate board
              oversight and controls to ensure that the Authority implements sound
              funding plans, enters valid obligations in the Line of Credit Control System,
              and complies with its procurement policy. The agreement targets
              completion before March 31, 2007. This should result in current available
              funding of $281,462 being put to better use.

          1B. Enter the valid cumulative obligation data for the 2003 program in the Line
              of Credit Control System and penalize it the appropriate amount for the
              months in which 2003 obligations totaled less than 90 percent of the 2003
              program funds after the required 24-month timeframe to obligate funding.
              This would reduce current available funding, which HUD would redistribute
              to high-performing public housing authorities.

          1C. Support or repay $164,203 in improper procurements.




                                          8
                        SCOPE AND METHODOLOGY

We performed the audit at our field office in Oklahoma City, Oklahoma, and the Authority’s
office in Jacksonville, Arkansas, from August 2006 through January 2007. The scope of the
work was July 1, 2003, through June 30, 2006. To meet the audit objective, we

       •      Obtained and reviewed background information and criteria related to the
              Authority’s administration of the program.
       •      Analyzed data from the HUD Line of Credit Control System to determine HUD
              assistance to the Authority and Authority payment records to determine use of
              HUD assistance.
       •      Interviewed the Authority’s current and former staff regarding allegations of
              wrongdoing, program operations, and controls.
       •      Reviewed contracts identified as backdated.
       •      Reviewed payments to contractors and suppliers for compliance with procurement
              policies and procedures.
       •      Obtained an understanding of the internal control environment to identify
              potential weaknesses in those internal controls related to the audit objective.

We concluded that computer-processed data provided by the Authority’s fee accountant were
reasonably reliable for identifying contractors and suppliers paid. We verified 16 of 17
payments listed with payment documentation. The one without documentation had not cleared
the bank, and the Authority later voided the payment.

We performed the audit in accordance with generally accepted government auditing standards.




                                              9
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Control


              We determined the following internal control was relevant to our audit objective:

              •       Controls to ensure compliance with funding and procurement requirements.

              We assessed the relevant control identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weakness


              Based on our review, we believe the following item is a significant weakness:

              •       The executive director administered program funding and served as the
                      contracting officer without board oversight to ensure compliance with HUD
                      funding requirements and the Authority’s procurement policy.




                                               10
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS
                AND FUNDS BE PUT TO BETTER USE




                 Recommendation        Unsupported        Funds be put to
                     number           procurements 1/      better use 2/
                         1A                                      $281,462
                         1C                   $164,203




1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings that are specifically
     identified. This represents the $281,462 that the Authority has available to benefit
     residents if the board and the Authority establish, implement, and follow the
     recommended controls.



                                            11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         12
13
14
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority agreed with the report. Its written comments are responsive to the
            audit recommendations and include detailed steps it has taken and will take to
            address deficiencies.




                                            15
